U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

William L. Huntress, et al. v. United States of America,
S.Ct. No. 20-426

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
30, 2020, and placed on the docket on October 2, 2020. The government’s response is due on
November 2, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 2, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0426
HUNTRESS, WILLIAM L,, ET AL.
USA

JOHN J. BURSCH
BURSCH LAW PLLC
9339 CHERRY VALLEY AVENUE SE
#78
CALEDONIA, MI 49316
616-450-4235
JBURSCH@BURSCHLAW.COM

